NO.

In the Supreme Court of the United States
AVIC INTERNATIONAL HOLDING
CORPORATION; AVIC INTERNATIONAL
RENEWABLE ENERGY CORPORATION;
AVIATION INDUSTRY CORPORATION OF CHINA;
CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT COMPANY LIMITED

v.
SOARING WIND ENERGY, L.L.C., ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
CEDRIC C. CHAO
CHAO ADR, PC
One Market Street
Spear Tower, 36th Floor
San Francisco, CA 94105
(415) 293-8088
Cedric.Chao@chao-adr.com

Counsel for Aviation
Industry Corporation of
China and China
Aviation Industry
General Aircraft
Company Limited

ILANA H. EISENSTEIN

Counsel of Record

DLA PIPER LLP (US)
One Liberty Place
1650 Market St.
Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein
@us.dlapiper.com

Counsel for Petitioners

(additional counsel listed on inside cover)

DREW W. MARROCCO
DENTONS US LLP
1900 K St., N.W.
Washington, D.C. 20006
(202) 496-7961
Drew.Marrocco@
dentons.com

ISABELLE L. ORD
DLA PIPER LLP (US)
555 Mission Street
Suite 2400
San Francisco, CA 94105
(415) 415 836-2500
Isabelle.Ord@
us.dlapiper.com

Counsel for Aviation
Industry Corporation of
China and China Aviation
Industry General Aircraft
Company Limited
LEANNA ANDERSON
DENTONS US LLP
2000 McKinney Ave.
Suite 1900
Dallas, Texas 75201
(214) 259-0900
Leanna.Anderson@
dentons.com

Counsel for AVIC
International Holding
Corporation

GREGORY R. AVE
WALTERS. BALIDO & CRAIN,
LLP
Counsel of Record
10440 N. Central
Expressway
Suite 1500
Dallas, TX 75231
(214) 347-8310
Greg.Ave@
wbclawfirm.com

Counsel for AVIC
International Renewable
Energy Corporation

QUESTIONS PRESENTED

1. Petitioners are foreign corporations that did
not sign the arbitration agreement signed by an affiliated entity, did not consent to arbitration, and objected to and did not participate in the arbitration. Before the arbitration, the district court refused to consider the non-signatories’ challenge to the arbitration
panel’s jurisdiction, and after the arbitration, the
courts below confirmed the arbitral award without reviewing the threshold question of arbitrability.
The question presented is: Whether the district
court must independently review a non-signatory’s
challenge to an arbitral panel’s jurisdiction before
the arbitration, and at a minimum, before confirmation of the arbitral award.
2. The United Nations Convention on the
Recognition and Enforcement of Foreign Arbitral
Awards, June 10, 1958, 21 U.S.T. 2517, known as the
New York Convention, requires courts to deny the enforcement and recognition of foreign arbitral awards
contrary to U.S. public policy or obtained without due
process, and requires equal treatment in the process
of constituting an arbitral panel. The Federal Arbitration Act, 9 U.S.C. §§ 201-208, the New York Convention’s implementing statute, permits those defenses in judicial proceedings to confirm or vacate foreign arbitral awards.
The question presented is: Whether the due process and public policy defenses under the New
York Convention prevent the recognition and enforcement of international arbitration awards where one
(I)

II
side of the dispute appointed a super-majority of the
members of the arbitral panel?

III
PARTIES TO THE PROCEEDING AND RULE 29.6
STATEMENT

Petitioner AVIC Renewable Energy Corporation
(“AVIC IRE”) is a subsidiary of Petitioner AVIC International Holding Corporation (“AVIC IHC”). AVIC
IHC is a subsidiary of Petitioner Aviation Industry
Corporation of China (“AVIC”), a state-owned enterprise of the People’s Republic of China. Petitioner
China Aviation Industry General Aircraft Company
Limited (“CAIGA”) is also a subsidiary of AVIC. No
publicly traded company owns more than 10% of the
shares of stock of any of these companies.

IV

TABLE OF CONTENTS
Page

Opinions Below ........................................................... 1
Jurisdiction ................................................................. 1
Statutes Involved ........................................................ 2
Statement .................................................................... 5
Reasons for Granting the Petition ........................... 12
I.

This Court Should Grant Review to Establish
Non-Signatories Are Entitled to Judicial
Review of Arbitrability Before Arbitration,
or at Minimum, Before Confirmation of an
Award that Purports to Bind Them. ............. 15
A.

Meaningful Independent Judicial Review
of Arbitral Jurisdiction Is Secured Only
If It Occurs Pre-Arbitration, or at Least
Before Confirmation of an Arbitral
Award ...................................................... 15

B.

The Fifth Circuit Erred by Failing to
Review Jurisdiction Over Petitioners
Before Confirming the Arbitral Award
That Purports to Bind Them .................. 20

C.

This Case Provides an Ideal Opportunity
to Confirm That Parties Are Entitled
to Independent Judicial Review of
Arbitrability Before Arbitration, and at
Minimum Before Confirmation .............. 25

V
II. This Court Should Grant Review to Vindicate
the Public Policy and Due Process Rights
Guaranteed by the New York Convention
to a Fair and Equitably Constituted Arbitral
Panel ............................................................... 26
A.

The Fifth Circuit’s Decision Splits from
International Law by Confirming the
Award Notwithstanding a Clear Violation
of the New York Convention’s
Requirement of Equality of Treatment .. 28

B.

The Principle of Equality of Treatment,
Established under the Convention to
Guard Against an Unjust Arbitral
Process, Is Important and Should Be
Enforced to Maintain Harmony with
International Arbitration Practice ......... 36

C.

The Fifth Circuit Court of Appeals Erred
in Affirming the Arbitral Award Handed
Down by a Severely Lopsided Panel ...... 38

D. This Case Is the Ideal Vehicle to Confirm
the Application of the Principle of
Equality of Treatment to the Constitution
of an Arbitral Panel ................................ 41
Conclusion

.......................................................... 43

Appendix A — Opinion of the Court of Appeals
(Jan. 7, 2020) ................................... 1a
Appendix B — Judgment of the Court of Appeals
(Jan. 7, 2020) ................................. 26a
Appendix C — Opinion of the District Court re
AVIC USA v. Tang(Feb. 5, 2015) .. 28a

VI
Appendix D — Memorandum and Order of the
District Court re Ascendant v.
Tang (Aug. 4, 2015) ....................... 38a
Appendix E — Order of the District Court
Severing the Non-Signatories
(Aug. 11, 2017)............................... 45a
Appendix F — Order of the the District Court
Confirming Arbitration Award
Against AVIC USA
(Aug. 9, 2018)................................. 48a
Appendix G — Amended Final Judgment of the
District Court Against AVIC USA
(Sept. 17, 2018) .............................. 82a
Appendix H — Order Denying Petition for Rehearing
En Banc (Feb. 4, 2020) .................. 85a
Appendix I — Judgment of the Court of Appeals
affirming Judgment of the District
Court (Feb. 12, 2020).................... 89a
Appendix J — Opinion of the Court of Appeals
affirming Judgment of the
District Court (Aug. 25, 2015)..... 115a
Appendix K — Arbitration Final Award
(Dec. 21, 2015) ............................. 119a

VII
TABLE OF AUTHORITIES
Page(s)
CASES

Abbott v. Abbott,
560 U.S. 1 (2010) ........................................... 35, 36
Ascendant Renewable Energy Corp. v. Tang
Energy Grp., Ltd., No. 14-CV-3314-K,
2015 WL 4713240 (N.D. Tex. Aug. 4,
2015)....................................................................... 6
AT&T Techs., Inc. v. Comm’ns Workers,
475 U.S. 643 (1986) ............................................. 15
Commonwealth Coatings Corp. v. Cont’l
Cas. Co., 393 U.S. 145 (1968) ........................ 37, 39
First Options of Chi., Inc. v. Kaplan,
514 U.S. 938 (1995) ....................................... 15, 17
GE Energy Power Conversion France SAS
Corp. v. Outokumpu Stainless USA,
LLC, 140 S. Ct. 1637 (2020) ................................ 28
Granite Rock Co. v. Int’l Bhd. of Teamsters,
561 U.S. 287 (2010) ............................................. 16
John Wiley & Sons, Inc. v. Livingston,
376 U.S. 543 (1964) ....................................... 15, 18
McMullen v. Meijer, Inc.,
355 F.3d 485 (6th Cir. 2004) ......................... 37, 39

VIII

Medellin v. Texas,
552 U.S. 491 (2008) ....................................... 34, 35
Nat’l Ass’n of Broad. Emps. & Technicians
v. Am. Broad. Co., Inc., 140 F.3d 459 (2d
Cir. 1998) ............................................................. 18
Oil, Chem., & Atomic Workers Int’l Union
(AFL-CIO) v. Conoco, Inc.
241 F.3d 1299 (10th Cir. 2001) ..................... 17, 18
Scherk v. Alberto-Culver Co.,
417 U.S. 506 (1974) ................................. 28, 34, 35
Sociétés BKMI et Siemens v. Société Dutco,
10 ASA Bull. 295 (1992) ................................ 30, 31
Vimar Seguros y Reaseguros, S.A. v. M/V
Sky Reefer,
515 U.S. 528 (1995) ............................................. 35
Will-Drill Res., Inc., v. Samson Res. Co.,
352 F.3d 211 (5th Cir. 2003) ................................. 5
STATUTES AND TREATIES
Federal Arbitration Act, 9 U.S.C. §§ 201-208 ...... 2, 28
9 U.S.C. § 13 ........................................................ 23
9 U.S.C. § 207 ...................................................... 29
United Nations Convention on the Recognition and Enforcement of Foreign Arbitral Awards, June 10, 1958, 21 U.S.T.
2517 ............................................................... passim

IX
RULES
London Court of International Arbitration art. 8
(2014), https://www.lcia.org//Dispute_Resolution_Services/lcia-arbitration-rules-2014.aspx#Article%208 .............................................................. 32
OTHER MATERIALS
Gary Born, International Commercial
Arbitration (2d ed. 2014) ............................... 29, 31

Fouchard, Gaillard, Goldman on International Commercial Arbitration (Emmanuel Gaillard & John Savage eds., 1999) ............. 31
H.R. Rep. No. 91-1181 (1970) ............................. 34, 37
Jeffrey Maurice Waincymer, Procedure and
Evidence in International Arbitration
(2012) ....................................................... 31, 39, 41
Charles Nairac, Due Process Considerations
in the Constitution of Arbitral Tribunals,
International Arbitration and the Rule
of Law (Andrea Menaker ed., 2017)........ 29, 30, 31

OPINIONS BELOW

The opinion of the court of appeals (Pet. App. 1a27a) is reported at 946 F.3d 742. The order of the district court (Pet. App. 45a-48a) severing the non-signatories from AVIC USA and staying their new case is
unreported. The order of the district court (Pet. App.
48a-81a) confirming the arbitral award against AVIC
USA is reported at 333 F. Supp. 3d 642.
JURISDICTION
The judgment of the court of appeals was entered
on January 7, 2020. A petition for rehearing was denied on February 4, 2020 (Pet. App. 85a-86a). On
March 19, 2020, the Court issued an order providing
for a 150-day extension due to the COVID-19 pandemic. The Court extended the time within which to
file a petition for a writ of certiorari up to and including July 6, 2020. The jurisdiction of the Court is invoked under 28 U.S.C. § 1254(1).

(1)

2
STATUTES INVOLVED

1. Section 201 of Chapter 2 of Title 9 of the
United States Code, which implements the New York
Convention,1 states:
The Convention on the Recognition and Enforcement of Foreign Arbitral Awards of June
10, 1958, shall be enforced in United States
courts in accordance with this chapter.
2. Section 207 of Chapter 2 of Title 9 of the
United States Code states:
Within three years after an arbitral award falling under the Convention is made, any party to
the arbitration may apply to any court having
jurisdiction under this chapter for an order confirming the award as against any other party to
the arbitration. The court shall confirm the
award unless it finds one of the grounds for refusal or deferral of recognition or enforcement
of the award specified in the said Convention.

United Nations Convention on the Recognition and Enforcement of Foreign Arbitral Awards, June 10, 1958, 21 U.S.T.
2517 [the “New York Convention” or the “Convention”]. The New
York Convention is implemented by Chapter 2 of the Federal Arbitration Act (“FAA”). See 9 U.S.C. §§ 201-208.
1

3
3. Article V of the New York Convention
states:
(1) Recognition and enforcement of the award
may be refused, at the request of the party
against whom it is invoked, only if that party
furnishes to the competent authority where the
recognition and enforcement is sought, proof
that:
***
(b) The party against whom the award is invoked was not given proper notice of the appointment of the arbitrator or of the arbitration
proceedings or was otherwise unable to present
his case.
***
(2) Recognition and enforcement of an arbitral
award may also be refused if the competent authority in the country where recognition and
enforcement is sought finds that:
***
(b) The recognition or enforcement of the award
would be contrary to the public policy of that
country.

4
STATEMENT

A. Respondents and AVIC USA were 50-50
owners in Soaring Wind Energy, LLC (“Soaring
Wind”), a venture to market wind energy equipment
and materials and to develop wind farms.2 The Limited Liability Company Agreement of Soaring Wind
Energy, LLC (“SWE Agreement”) governed the venture, and among other things, established the agreement of the members of Soaring Wind to arbitrate disputes among them. A dispute among the members
arose when Respondents accused Petitioners (among
other non-signatories to the SWE Agreement) of violating the SWE Agreement’s exclusivity provision by
competing against Soaring Wind. Respondents initiated an arbitration with the American Arbitration Association (“AAA”), naming AVIC USA, Petitioners,
and other non-signatories under various theories of liability, including the assertion that Petitioners were
alter egos of AVIC USA.

The five Respondents are Tang Energy Group, Ltd.
(“Tang”), The Nolan Group, Inc., Keith P. Young, Jr. (now deceased and represented by Mary M. Young, individually and as
the independent executrix of the Estate of Keith P. Young),
Mitchell W. Carter, and Jan Family Interests, Ltd. ROA.2980304.
2

5
Petitioners objected to the arbitration on jurisdictional, and other grounds, and filed lengthy Objections and a Notice of Non-Participation asserting that
they were not obligated and declined to appear in the
arbitration. Before the arbitration, Ascendant Renewable Energy Corporation (“Ascendant”), another
non-signatory named in the arbitration, filed suit
against Respondents asserting that the arbitral panel
lacked jurisdiction over the non-signatories because
Respondents failed to obtain a court order compelling
non-signatories to arbitrate. Pet. App. 38a-44a.
On August 4, 2015, the district court granted
Ascendant’s motion for summary judgment and denied as moot Ascendant’s motion to stay all actions related to the arbitration. Pet. App. 38a-44a. The district court admonished Respondents that the “threshold issue” of whether a non-signatory is bound to arbitrate “is for a court, not an arbitrator, to determine in
the first instance.” Id. at 42a. The district court observed, “[when] the very existence of any agreement
[to arbitrate] is disputed, it is for the courts to decide
at the outset whether an agreement was reached.”
Id. (quoting Will-Drill Res., Inc. v. Samson Res.
Co, 352 F.3d 211, 218-19 (5th Cir. 2003) (brackets
in original)). But, the district court noted that,
rather than taking up arbitrability at that juncture,
it would evaluate arbitrability later without

6
deference to the arbitral panel’s rulings. Pet. App.
42a.
Recognizing that the Ascendant decision might
result in an arbitral award that would be overturned
later for lack of jurisdiction, Respondents filed an
“emergency” motion to abate so they could attempt to
obtain a court ruling on arbitrability. ROA.30950-55;
Ascendant Renewable Energy Corp. v. Tang Energy
Grp., Ltd., No. 14-CV-3314-K, 2015 WL 4713240 (N.D.
Tex. Aug. 4, 2015). Respondents conceded in that motion that they could not prove any breach of the SWE
Agreement without asserting jurisdiction over and liability of the non-signatories. ROA.30951. The panel
denied Respondents’ motion to abate and pushed forward with the arbitration.
B. AVIC USA and the non-signatories also objected to the process for selection of the arbitral panel
initiated by Respondents. Rather than following the
typical process of allowing each side to pick an equal
number of arbitrators with the presiding arbitrator
selected by the AAA or with equal input from each
side, the panel accepted Respondents’ interpretation
of the SWE Agreement to allow each participant to select an arbitrator. Pet. App. 28a-37a, 57a-62a. As a
result, even though Respondents and AVIC USA were
50-50 owners in Soaring Wind, the five aligned Respondents were each permitted to select an arbitrator,

7
while AVIC USA and another aligned party were permitted to choose only two arbitrators. Id. at 57a-58a.
Respondents appointed the first five arbitrators and
communicated their “thoughts” on the eighth and
ninth arbitrators ex parte to those five arbitrators.
Neither AVIC USA nor the aligned party engaged in
any ex parte communications regarding arbitrator
selection.3
C. In August 2015, the arbitral panel conducted a five-day hearing, concluding by a 6-3 vote
that it had jurisdiction over the non-signatories (including Petitioners), and that the claims against them
were arbitrable because the majority determined the
non-signatories were alter egos of AVIC USA. Pet.
App. 120a, 164a-170a. Based on its assertion of jurisdiction over the non-signatories, and notwithstanding
the district court’s Ascendant decision to the contrary,
the panel heard evidence as to both AVIC USA and
the non-signatories, trying the non-signatories in absentia.

Before the arbitration, AVIC USA filed an action to void
the lopsided arbitral panel, or to reconstitute it with equal input
from the two sides. Pet. App. 28a-37a. The district court dismissed the action for lack of subject matter jurisdiction, holding
that AVIC USA’s remedy was to raise that challenge after arbitration. The Fifth Circuit affirmed that dismissal. Id. at 37a.
3

8
On December 21, 2015, the panel issued a final
award in favor of Respondents. Relying on an alter
ego theory, the panel found the non-signatories were
“affiliates” of the signatory, AVIC USA, and that a
non-signatory, AVIC IRE, breached the exclusivity
provision of the SWE Agreement by competing
against Soaring Wind. The panel not only imputed
AVIC IRE’s breach to AVIC USA, it also imputed
AVIC USA’s breach to the other non-signatories under
an alter ego theory, finding AVIC USA and the nonsignatories jointly and severally liable for $62.9 million in damages. Pet. App. 119a-180a.
Three of the nine arbitrators dissented from the
entire award, including the majority’s decisions to: (a)
proceed without an independent court determination
of jurisdiction over the objecting non-signatories, (b)
exercise jurisdiction over the non-signatories, (c) admit evidence and make adverse inferences and findings against the non-signatories, and (d) find joint and
several liability of AVIC USA and the non-signatories.
Pet. App. 165a-180a.
D. Respondents filed a motion with the district
court to confirm the award as to both AVIC USA and
the non-signatories (other than Ascendant). AVIC
USA and the non-signatories filed oppositions to the

9
motion to confirm, as well as motions to vacate the
award. Pet. App. 48a-81a, 82a-84a.
On August 9, 2018, the district court severed
the non-signatories from AVIC USA, assigned a new
case number, and stayed and administratively closed
the Non-Signatories’ new case. Pet. App. 45a-47a.
The same day, the district court granted Respondents’
motion to confirm the award against AVIC USA and
entered judgment against AVIC USA. Id. at 81a.
The district court found AVIC USA’s challenge
to the lopsided arbitral panel unreviewable under the
FAA, holding that “such ‘procedural questions’ are
presumed to be for an arbitrator to decide” and are
“binding.” The court refused to recognize that due process and fairness in selection of an arbitral panel are
grounds to invalidate an arbitral award under the
New York Convention. The court also found AVIC
USA could not challenge the award based on the arbitral panel’s improper assertion of jurisdiction over the
non-signatories and rejected AVIC USA’s arguments
that the panel erred by using an alter-ego theory to
impute liability to AVIC USA based on the conduct of
one non-signatory, AVIC IRE. Because it had already
severed the non-signatories from the case, the court
gave no consideration to their arbitrability arguments.

10
E. Petitioners and AVIC USA appealed. Pet.
App. 1a-25a. On January 7, 2020, the Fifth Circuit
Court of Appeals affirmed confirmation of the award
against AVIC USA.4 Id. at 26a-27a.
The Fifth Circuit’s decision relied on the fact
that AVIC USA was a signatory to the SWE Agreement, and therefore purportedly agreed to the imbalanced panel and arbitral process, even if it was unfair.
Pet. App. 15a-17a. The Fifth Circuit characterized
the non-signatories’ arbitrability arguments as “irrelevant” because AVIC USA agreed to the terms of the
SWE Agreement. Id. at 16a.
The Fifth Circuit did not address whether the
non-signatories were entitled to independent judicial
review of the panel’s jurisdiction before confirmation
of an award that was predicated on the purported conduct of one non-signatory and that imposed joint and
several liability on AVIC USA and all the non-signatories. The Fifth Circuit also rejected Petitioners’ due
process objections as a “notion” that would “require
this court to invalidate any award not issued by an
evenly appointed panel.” Pet. App. 20a.

Non-signatories Ascendant and AVIC T.E.D. were dismissed from the action before the Fifth Circuit decision.
4

11
F. Petitioners and AVIC USA filed a joint petition for rehearing en banc, which was denied on February 4, 2020. Pet. App. 85a-87a. This petition now
follows.

12
REASONS FOR GRANTING THE PETITION
This case presents two issues of importance
that merit the Court’s review. Petitioners embrace the
federal courts’ deference to arbitration. That deference, however, is predicated on the availability of safeguards in the arbitral process essential to the fairness
of arbitration. It is impossible to strip away those safeguards and yet maintain the deference to arbitration
— lest the proceedings degenerate into a fundamentally unfair and unreviewable morass that undermines respect for and confidence in the institution of
arbitration as a fair and effective alternative to the
courts.
Here, the arbitrators’ award and the lower
courts’ unquestioning deferential confirmation of that
award purport to bind the Petitioners, although they
never agreed to arbitrate. Notwithstanding the district court’s pre-arbitration holding in Ascendant recognizing that only a court can determine arbitrators’
jurisdiction over non-signatories, here the arbitration
charged ahead. This placed the non-signatories in the
untenable position of either participating in an arbitration to which they never consented or risking adverse results by not participating in the proceedings
deciding their fate.

13
Compounding the harm to Petitioners was Respondents’ “stacked deck” arbitral panel in which Respondents appointed the first five arbitrators while
the other side (represented by AVIC USA and another
party) picked only two arbitrators. That alreadyskewed panel then selected the eighth and ninth arbitrators, based on Respondents’ ex parte recommendations. Respondents thus appointed directly or indirectly a super-majority of the panel. There has never
been a reported and judicially sanctioned arbitration
in U.S. jurisprudence or international arbitration permitting one side, over objection, to appoint more arbitrators than the other side, much less a super-majority of a panel.
Notwithstanding Respondents’ request to first
seek judicial review of the panel’s jurisdiction over the
non-signatories, the panel pressed forward with the
arbitration and, by a 6 to 3 vote, found jurisdiction
over the non-signatories, drew adverse inferences
against them based on their non-participation in the
arbitration, and issued an award imposing joint-andseveral liability on them and AVIC USA.
Demonstrating the pernicious influence of the
“stacked deck” panel, the six arbitrators in the supermajority were all appointed directly or indirectly by
Respondents. The remaining three arbitrators dissented entirely, declining to join in even one factual

14
finding or legal conclusion. They dissented even from
the majority’s decision to exercise jurisdiction over the
non-signatories. Pet. App. 180a.
This Court’s review is warranted to: (1) determine that independent judicial review of an arbitral
panel’s jurisdiction over non-signatories must take
place before arbitration, or at least, before the arbitral
award is confirmed—an issue of great importance and
not yet resolved; and (2) resolve the conflict between
the Fifth Circuit and the international arbitration
community regarding whether the public policy and
due process defenses under the New York Convention
prevent the recognition and enforcement of an international arbitration award issued by a lopsided arbitral panel where one side appointed a super-majority
of the panel members.

15
I.

This Court Should Grant Review to Establish
Non-Signatories Are Entitled to Judicial Review of Arbitrability Before Arbitration, or at
Minimum, Before Confirmation of an Award
that Purports to Bind Them.
A.

Meaningful Independent Judicial Review of Arbitral Jurisdiction Is Secured
Only If It Occurs Pre-Arbitration, or at
Least Before Confirmation of an Arbitral
Award

It is well established that a non-signatory
which disputes that it is subject to an arbitration
agreement is entitled to independent judicial review
of the threshold jurisdictional question of “arbitrability.” AT&T Techs., Inc. v. Comm’ns Workers, 475 U.S.
643, 648-49 (1986) (“Unless the parties clearly and unmistakably provide otherwise, the question of
whether the parties agreed to arbitrate is to be decided by the court, not the arbitrator.”). This fundamental principle “flow[s] inexorably from the fact that
arbitration is simply a matter of contract.” First Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 943 (1995);
John Wiley & Sons, Inc. v. Livingston, 376 U.S. 543,
546-47 (1964) (“Under our decisions, whether or not
the company was bound to arbitrate . . . is a matter to
be determined by the Court on the basis of the con-

16
tract entered into by the parties.”). The right to meaningful judicial review of arbitral jurisdiction is the
lynchpin of our voluntary and contractual arbitration
system. Granite Rock Co. v. Int’l Bhd. of Teamsters,
561 U.S. 287, 299 (2010) (“Arbitration is strictly a
matter of consent”) (internal quotation marks omitted).
Although the right to judicial review of arbitrability is firmly established, this Court has not addressed the important question of when courts should
conduct the required judicial review — and whether a
party is entitled to such review before the arbitration,
at the confirmation or vacatur stage, or whether a
court may punt that determination until post-confirmation enforcement proceedings, when important defenses to a confirmed award are no longer available.
This Court should grant review to establish
that when presented with an arbitrability challenge,
courts should determine whether jurisdiction exists
over non-signatories before the arbitration begins.
Judicial review is intended to preserve arbitration’s
contractual foundation by ensuring that parties have
a legitimate opportunity to litigate arbitrability and to
obtain a court’s independent review of those issues before they can be compelled to arbitrate. Pre-arbitration review effectuates the requirement that parties
consent to arbitration. See Oil, Chem., & Atomic

17

Workers Int’l Union (AFL-CIO) v. Conoco, 241 F.3d
1299 (10th Cir. 2001).
Without pre-arbitration review non-signatories
are forced to choose between two unacceptably harmful options: (1) arbitrate against their will, without
ever having agreed to do so; or (2) decline to participate in the arbitration and risk that the arbitrators
will wrongly assert jurisdiction over and make adverse findings against them. This is an untenable
Hobson’s choice. Delay of review of arbitrability impugns the fundamental premise that arbitration requires consent because it is a matter of contract, and
is fundamentally unfair to non-signatories which did
not consent to arbitrate. First Options, 514 U.S. at
946-47.

Conoco illustrates the importance of pre-arbitration review when requested by the parties. Conoco
asked the district court to determine arbitrability before the arbitration. 241 F.3d at 1303-05. The district
court ordered the parties to arbitration but attempted
to defer its arbitrability ruling. Id. The Tenth Circuit
vacated the district court’s order, reasoning that “[t]he
possibility that the district court might revisit the arbitrability question at the conclusion of the arbitration proceedings is not an adequate substitute for a
pre-arbitration ruling.” Id. at 1305. The court con-

18
cluded Conoco was “entitled to a ruling on arbitrability before it is compelled to submit to arbitration.” Id.
The Tenth Circuit’s reasoning was grounded in this
Court’s decisions that “an arbitration should not proceed until a court has resolved the threshold question
of whether the dispute is arbitrable.” Id. at 1304
(quoting John Wiley & Sons, 376 U.S. at 547 (“[A] compulsory submission to arbitration cannot precede judicial determination that the collective bargaining
agreement does in fact create such a duty.”)).5
At a minimum, however, a court should not
confirm an arbitration award based on findings
against non-signatories without first performing the
required independent review. If the court fails to do
so, the party challenging arbitrability is effectively deprived of independent judicial review because a final
Conversely, courts agree that where parties elect to preserve the issue for post-arbitration proceedings, the determination need not necessarily precede the arbitration. See, e.g., Nat’l
Ass’n of Broad. Emps. & Technicians v. Am. Broadcasting Co.,
Inc., 140 F.3d 459, 462 (2d Cir. 1998) (“NABET ”) (where parties
did not seek pre-arbitration review, finding “no reason why arbitrability must be decided by a court before an arbitration award
can be made” if parties desire alternate order of proceedings)
(emphasis added); see also Conoco, 241 F.3d at 1305 n.2 (distinguishing NABET’s deferral of arbitrability ruling because, in
that case, “neither party requested a determination of arbitrability before the arbitration commenced”).
5

19
confirmed award that includes findings against it is
an enforceable judgment that can no longer be contested on the merits. If a court does not review arbitrability even at the confirmation stage, a non-signatory’s only remaining remedy is to protest enforcement of the confirmed award against it, not to challenge the award itself.
A party challenging a confirmed award has limited defenses at the enforcement stage, where it may
be precluded from contesting the legal, factual, and jurisdictional underpinnings of the confirmed award.
As a practical matter, therefore, deferral of arbitrability review is denial of the jurisdictional challenge.
Moreover, deferral of the arbitrability decision is a tremendous waste of legal and judicial resources, undermining a core purpose of arbitration—it makes no
sense for a court to wait until enforcement of an award
to review the threshold issue of arbitrability, particularly after parties endured the arbitration and the
confirmation process.
This Court should accordingly hold that a court
should independently review a challenge to an arbitration panel’s jurisdiction over non-signatories before
the arbitration or, at minimum, before confirming the
arbitral award.

20
B.

The Fifth Circuit Erred by Failing to Review Jurisdiction Over Petitioners Before Confirming the Arbitral Award that
Purports to Bind Them

The courts below erred in refusing to review arbitral jurisdiction over Petitioners before arbitration
and by again failing to address the issue at the confirmation stage. Before arbitration, the district court
recognized, in theory, that arbitrability is a question
reserved for the court and the arbitral panel’s nonbinding opinion on that jurisdictional question is owed
no deference. The district court nonetheless declined
to stay the arbitration as to the non-signatories.6 Pet.
App. 38a-44a.
Thereafter, the panel asserted jurisdiction over
and made adverse decisions in absentia against Petitioners, which the panel deemed to be alter egos of
6 Respondents fully appreciated the impact of the Ascendant ruling on their efforts to ensnare the non-signatories in arbitration, and immediately asked the panel to abate the proceeding
so they could obtain the district court’s independent review of the
arbitrators’ jurisdiction over the non-signatories before the arbitration, lest they conduct the arbitration only to have a court
later find their dispute with the non-signatories was not
arbitrable. The panel denied the emergency motion and the
arbitration proceeded.

21
AVIC USA. The panel did not find any direct breach
by AVIC USA. Rather, the panel’s finding of a breach
depended on its exercise of jurisdiction over non-signatories, its finding that a non-signatory, Petitioner
AVIC IRE, breached an exclusivity provision, and its
conclusion that the actions of AVIC IRE should be imputed to AVIC USA. In doing so, the panel scrambled
the evidence with no effort to separate or to make distinct findings as between AVIC USA and the non-signatories. The panel then went further and imputed
AVIC USA’s liability to the other non-signatories,
holding the non-signatories jointly and severally liable with AVIC USA in the award. Pet. App. 169a.
Even after the panel issued its award against
the non-signatories, the courts below refused to review jurisdiction over Petitioners before confirming
the award. At the confirmation stage, Petitioners
sought to vacate the award, reiterating their arbitrability challenge as non-signatories. Notwithstanding
its holding in Ascendant, the district court severed Petitioners from AVIC USA and relegated their motions
to vacate to a separate case that the court immediately closed administratively. The district court then
confirmed the panel’s findings against AVIC USA
without recognizing that the findings and award were
inextricably intertwined with the panel’s exercise of

22
jurisdiction over and findings against all the non-signatories. Pet. App. 48a-81a, 82a-84a. This tremendous leap allowed the district court to neatly confirm
the award against AVIC USA without ever reaching
the predicate issue of whether the panel ever had jurisdiction over the non-signatories — a finding essential to the panel’s award.
The Fifth Circuit likewise affirmed without review of the arbitral panel’s jurisdiction over the nonsignatories, applying a narrow and “very deferential”
standard. Pet. App. 1a-25a. In doing so, the Fifth Circuit deprived Petitioners of the independent judicial
review to which they were entitled before the award
was confirmed and became enforceable as a judgment.
Thus neither the district court nor the Fifth Circuit
has ever answered the threshold question of whether
the arbitrators had jurisdiction over the Non-Signatory Petitioners.
The courts below erred in failing to independently review jurisdiction over Petitioners when
asked to vacate the award and before confirmation of
it. Having twice been denied judicial review of the
threshold jurisdictional question, the Petitioners now
face a confirmed award containing findings against
them, including joint and several liability, even
though they never agreed to arbitrate.

23
The district court’s severance of the non-signatories before confirmation of the award against AVIC
USA purported to defer the jurisdictional review. But
the legal and practical effect of the courts’ repeated
failures to independently review arbitrability is de
facto confirmation of the award against the non-signatory Petitioners because the party holding a confirmed
award can attempt to enforce it as a judgment or otherwise rely on those findings as preclusive. See 9
U.S.C. § 13.
The district court’s attempt to “sever” the nonsignatories and postpone the arbitrability determination ignores the interdependence of the findings
against AVIC USA and the non-signatories. The
court’s confirmation of the award as to AVIC USA allows the arbitrators’ unreviewed jurisdictional and liability findings against the non-signatories to stand,
regardless of whether the court ever revisits the nonsignatories’ arbitrability challenge in the severed action. The egg cannot be unscrambled.
Now that the award has been confirmed against
AVIC USA, Petitioners will have limited defenses to
enforcement. Respondents have already asserted that
the confirmed award against AVIC USA is the “law of
the case” and argue that it precludes Petitioners from
contesting the validity of the award. ROA.34224; see
ROA.34226 (Movants Combined Reply Br. on Mot. for

24
Rescheduling Order Governing Briefing of Movants’
Mot. to Confirm and Resp’ts’ Mots. To Vacate and Mot.
To Dismiss at 2, 4, Soaring Wind Energy, LLC v. Catic
USA, Inc., No. 15-cv-04033 (N.D. Tex. Apr. 25, 2016),
ECF No. 260) (“Once the Court has decided these issues, they will be decided once and for all.”).7 At a
subsequent enforcement stage, Petitioners may challenge their responsibility for the judgment as alleged
alter egos, but will have no opportunity to revisit the
arbitral panel’s confirmed award against AVIC USA.
By punting the core issue of arbitrability while
confirming the award against AVIC USA, the courts
below provided no effective judicial review — essentially reducing any eventual judicial review to a rubber stamp of arbitrators’ unauthorized jurisdictional
and liability findings. Allowing continued uncertainty
as to when a district court must review the question
of arbitrability leaves the arbitral process riddled with
holes, lacking fundamental fairness, and a source of
prejudice to parties who never agreed to arbitrate.
This Court should definitively resolve the question regarding when judicial review of arbitrability
7 Petitioners do not agree with Respondents’ theory of purported claim preclusion, particularly where the confirmed award
and resulting judgment were procured without a court review of
arbitrability for the non-signatories.

25
must occur for non-signatories. Otherwise, under the
Fifth Circuit’s approach, non-signatory parties will effectively be compelled to arbitrate and deprived of any
meaningful due process — i.e., an opportunity to challenge the arbitrators’ assertion of jurisdiction over
and findings against them at any time before an
award is confirmed.
C. This Case Provides an Ideal Opportunity to
Confirm that Parties Are Entitled to Independent Judicial Review of Arbitrability Before Arbitration, and at Minimum Before
Confirmation
This case illustrates the danger in denying review of arbitrability before a confirmed award may be
enforced. Petitioners objected to arbitrability at every
stage, including before and after the arbitration, and
through a motion to vacate the award. Despite its assurances in Ascendant that arbitrability would be addressed by de novo review, the district court confirmed
the award against AVIC USA without ever reaching
the underlying question of arbitrability as to the nonsignatories, who were tried in abstentia with AVIC
USA.
Petitioners are now left without meaningful independent judicial review. Petitioners now risk en-

26
forcement of the confirmed award, which includes adverse findings and imposes joint and several liability
against them, without ever receiving their day in
court as to the threshold question of the panel’s jurisdiction. This important question is squarely presented for review.
II.

This Court Should Grant Review to Vindicate
the Public Policy and Due Process Rights Guaranteed by the New York Convention to a Fair
and Equitably Constituted Arbitral Panel

The due process limits on the constitution of an
arbitral panel under the New York Convention is an
issue of fundamental importance to the role of American courts in the system of international arbitration.
Here, the courts below confirmed the arbitral award
by a panel blatantly stacked in favor of one side, resulting in a super-majority that voted as a block. Respondents directly or indirectly appointed six out of
nine arbitrators, and these six arbitrators voted in
unison on every issue, including the ultimate award,
over the dissenting three arbitrators.
The decision of the courts below is contrary to
the due process and public policy requirements underpinning the New York Convention. See New York
Convention arts. V(1)(b), V(2)(b). These defenses are
designed to protect fundamental due process that is

27
central to the fairness of arbitral proceedings and
widely recognized and enforced by the international
community.
The Fifth Circuit’s affirmance of the arbitral
award here establishes an interpretation of the New
York Convention contrary to international arbitration
practice and law. Other signatory nations and international law scholars have interpreted the New York
Convention’s due process and public policy defenses to
ensure just results by requiring equality of treatment
in the constitution of an arbitral tribunal. Departure
from these principles puts the Fifth Circuit, and thus
the United States, at odds with the international consensus on the fair constitution of arbitral panels, undermines the Convention’s purpose in unifying the
standards for recognizing and enforcing arbitral
awards in signatory countries, and violates these essential due process norms.

28
A.

The Fifth Circuit’s Decision Splits from
International Law by Confirming the
Award Notwithstanding a Clear Violation of the New York Convention’s Requirement of Equality of Treatment

1. The New York Convention requires
equality of treatment in the constitution of arbitral panels
The New York Convention is “a multilateral
treaty that addresses international arbitration” and
“contains recognition and enforcement obligations related to arbitral awards for contracting states and for
parties seeking the enforcement of arbitral awards.”
GE Energy Power Conversion France SAS Corp. v.
Outokumpu Stainless USA, LLC, 140 S. Ct. 1637,
1644 (2020). The United States adopted the Convention and incorporated it into Chapter 2 of the FAA, see
9 U.S.C. §§ 201-208, to “encourage the recognition and
enforcement of commercial arbitration agreements in
international contracts and . . . unify the standards by
which agreements to arbitrate are observed . . . in the
signatory countries.” Scherk v. Alberto-Culver Co.,
417 U.S. 506, 520 n.15 (1974). Although the Convention provides for summary enforcement of an international award in countries party to the convention, it
establishes seven grounds for challenge of such

29
awards, incorporated into the FAA at Section 207. See
9 U.S.C. § 207.
The Convention provides that a court may refuse to recognize and enforce an international arbitral
award that violates standards of due process or public
policy. New York Convention art. V(1)(b); id. art.
V(2)(b). Article V(1)(b) is widely recognized to prevent
recognition of an arbitral award “based on procedures
that deny the parties equality of treatment or an opportunity to be heard.” Gary Born, International
Commercial Arbitration 2158 (2d ed. 2014) (emphasis
added). “Properly interpreted, the mandatory procedural standards applicable under Article V(1)(b) are
not based on national laws or public policies, but instead impose a uniform international standard of procedural fairness and equality.” Id. at 2157.
The parties “should receive equal treatment
throughout the entire arbitration process, including
during constitution of the tribunal,” and the “arbitrator selection method chosen by the parties or the procedural rules to which they refer must ensure a level
playing field.” Charles Nairac, Due Process Considerations in the Constitution of Arbitral Tribunals, International Arbitration and the Rule of Law 119, 123-24,
124 n.15 (Andrea Menaker ed., 2017) (emphasis
added). Accordingly, the parties’ contractually agreed
method “can be set aside either by the institution or a

30
national court at the seat of the arbitration” if it “creates a significant imbalance between the parties in
the constitution process.” Id. at 124 n.15.
International treatises and the courts of signatory nations extol the requirement of equality of treatment of the parties through the arbitration process,
especially in the constitution of the tribunal. In the influential case Sociétés BKMI et Siemens v. Société
Dutco (“Dutco”), the French Court of Cassation refused to enforce an award resulting from a three-member tribunal in which the International Chamber of
Commerce (“ICC”) required two respondents with diverging interests to jointly nominate an arbitrator.
See Judgment of 7 January 1992, Sociétés BKMI et
Siemens v. Société Dutco, 10 ASA Bull. 295, 295-97
(1992) (French Cour de cassation civ. 1e). In Dutco,
the French Court of Cassation found the arbitrator
nomination process unfairly favored the claimant and
deprived the respondents of their right to equal treatment. Id. It found that equal treatment of the parties
was so fundamental to public policy, that it could be
waived only after a dispute had arisen, and therefore
operated to invalidate the arbitral award — even
though the panel was constituted in compliance with
the arbitration agreement and ICC arbitration rules.
Id.; see also Nairac, supra, at 125.

31

Dutco is the seminal authority in international
arbitration declaring the now-established rule that
the process of constituting the arbitral panel “should
not favour one party over another.” See Nairac, supra,
at 126. Dutco reflects the principle that while all parties “should have the same rights with regard to the
appointment of the arbitrators,” they should not necessarily “all have a right to appoint ‘their’ arbitrator.”
See Fouchard, Gaillard, Goldman on International
Commercial Arbitration 469-70 (Emmanuel Gaillard
& John Savage eds., 1999). “[T]he parties’ discretion
as to their choice of arbitration is not without its limits.” Id. As a reaction to Dutco, “most leading institutional rules have adopted provisions dealing with appointment of arbitrators in multi-party cases.” Born,
supra, at 2610.
This principle of equal treatment seeks to prevent the unfairness of the situation here, where there
are nominally more than two disputants to an arbitration but only two sides to the dispute. In a multi-party
case, “[s]imply providing each party with one selection
would lead to an imbalance when there are distinct
claimant and respondent groups of differing
numbers.” Jeffrey Maurice Waincymer, Procedure
and Evidence in International Arbitration 510 (2012).
Moreover, this imbalance would be “particularly prob-

32
lematic if parties on the majority side were able to appoint some or all parochial arbitrators as this might
guarantee a favourable outcome.” Id. at 510-11. The
constitution of the panel must not so favor one side
that a favorable outcome for that side is all but guaranteed.
Even where the arbitration agreement putatively permits an imbalanced panel, such mechanisms
in an arbitration agreement should be set aside where
“their terms are problematic from a substantive
equality perspective.” Id. at 511. For example, Article
8 of the 2014 London Court of International Arbitration (“LCIA”) Rules implements these principles by
mandating that each “side” of a multi-party arbitration appoint arbitrators, or alternatively that the
LCIA appoint all members of the arbitral panel where
there are three or more parties and the disputing parties do not collectively represent two “sides.”8 Contrary to the Fifth Circuit, these equality of treatment
principles apply even if the parties’ agreement provides for a different, but unbalanced appointment process. At minimum, the arbitration agreement here

London Court of International Arbitration art. 8 (2014),
https://www.lcia.org//Dispute_Resolution_Services/lcia-arbitration-rules-2014.aspx#Article%208.
8

33
should have been construed to avoid conflict with
these bedrock principles.

2. The Fifth Circuit’s departure from
these internationally recognized principles of equality of treatment undermines the United States’ obligations
under the New York Convention.
The Fifth Circuit ignored the principle of equality of treatment in upholding the panel’s award where
the constitution of the panel was grossly imbalanced
with Respondents directly or indirectly appointing six
out of the nine arbitrators. The Fifth Circuit brushed
aside this equality concern, explaining that it would
not “discard the plain text” of the arbitration agreement “out of so-called fairness.” Pet. App. 19a. But
that is exactly what the principle of equality of treatment requires: to set aside as unfair arbitral awards
handed down by a grossly imbalanced panel. At the
very least, the courts should have interpreted the arbitral agreement to avoid this clear conflict with the
New York Convention’s requirements, rather than
disregarding the principle of equality entirely.
This divergence from the fundamental equality
norm is contrary to Congress’ purposes in implementing the New York Convention, including “to unify the

34
standards by which agreements to arbitrate are observed and arbitral awards are enforced in the signatory countries.” Scherk, 417 U.S. at 520 n.15. In implementing the New York Convention through the
FAA, Congress sought to give “domestic effect to international obligations” under the Convention. See Medellin v. Texas, 552 U.S. 491, 522 (2008) (noting the
Convention as an example of a treaty given domestic
effect). The House Committee on the Judiciary, in recommending the passage of the bill amending the FAA
to implement the New York Convention, noted that
implementing the New York Convention would “serve
the best interests of Americans doing business abroad
by encouraging them to submit their commercial disputes to impartial arbitration for awards which can be
enforced in both U.S. and foreign courts.” H.R. Rep.
No. 91-1181, at 3602 (1970) (“House Report”).
A variety of public and private actors supported
the Convention’s implementation, including the
American Bar Association, the Inter-American Commercial Arbitration Commission, the International
Chamber of Commerce, the Department of State, and
the Department of Justice. Id. In deviating from international practice, the United States risks undermining the interests of Americans doing business
abroad by throwing into question whether arbitral

35
awards will be subject to uniform recognition and enforcement standards in U.S. and foreign courts. See
Scherk, 417 U.S. at 520 n.15.
Courts “should be most cautious before interpreting its domestic legislation in such manner as to
violate international agreements,” so that the United
States is “able to gain the benefits of international accords and have a role as a trusted partner in multilateral endeavors.” See Vimar Seguros y Reaseguros,
S.A. v. M/V Sky Reefer, 515 U.S. 528, 539 (1995) (interpreting the Hague Rules [Brussels Convention for
the Unification of Certain Rules Relating to Bills of
Lading, 51 Stat. 233 (1924)]). In interpreting other
treaties to which the United States is a party, this
Court has declined to interpret them “in a manner
contrary to every other nation to have addressed this
issue.” Vimar Seguros y Reaseguros, 515 U.S. at 537.
This Court has repeatedly recognized the importance of interpretation of international treaties in
a manner consistent with other signatory nations.
See Medellin, 552 U.S. at 517 (“So too here the lack of
any basis for supposing that any other country would
treat ICJ judgments as directly enforceable as a matter of their domestic law strongly suggests that the
treaty should not be so viewed in our courts.”); Abbott
v. Abbott, 560 U.S. 1, 16 (2010) (noting that in inter-

36
preting any treaty, “[t]he ‘opinions of our sister signatories’ . . . are ‘entitled to considerable weight’”). This
includes looking to scholars’ views of “an emerging international consensus.” Abbott, 560 U.S. at 18. This
Court should grant review to ensure that the United
States does not stand alone among nations in failing
to recognize the principle of equality of treatment in
the constitution of arbitral panels.
B.

The Principle of Equality of Treatment,
Established under the Convention to
Guard Against an Unjust Arbitral Process, Is Important and Should Be Enforced to Maintain Harmony with International Arbitration Practice

Enforcement of the principle of equality of treatment under the Convention is an issue of substantial
national importance worthy of this Court’s review.
Declining to give the Article V(1)(b) and Article V(2)(b)
defenses their full effect leaves arbitration vulnerable
to manipulation and gamesmanship in the arbitrator
selection process. A party seeking an unfair advantage in arbitration need only split itself into a
number of entities—a Hydra with each head appointing an arbitrator—to assure a favorable outcome for
its side. Parties may now view the United States as a
forum for gamesmanship that allows their opponents
to engage in forum shopping to “stack the deck” in

37
their favor.
Besides violating fundamental norms of due
process and United States’ public policy, the ability of
one side to engineer a favorable outcome through the
panel constitution process erodes parties’ faith that
arbitration will provide a fair and effective alternative
to court proceedings. A lack of fairness in the arbitrator selection process prevents the arbitration from being an effective substitute for a judicial forum because
it inherently lacks neutrality. McMullen v. Meijer,
Inc., 355 F.3d 485, 494 n.7 (6th Cir. 2004) (“When the
process used to select the arbitrator is fundamentally
unfair . . . the arbitral forum is not an effective substitute for a judicial forum, and there is no need to present separate evidence of bias or corruption in the particular arbitrator selected.”); see also Commonwealth
Coatings Corp. v. Cont’l Cas. Co., 393 U.S. 145, 149
(1968) (“[W]e should, if anything, be even more scrupulous to safeguard the impartiality of arbitrators
than judges, since the former have completely free
rein to decide the law as well as the facts and are not
subject to appellate review.”).
In implementing the Convention, Congress believed it would “serve the best interests of Americans
doing business abroad” and encourage them to submit
commercial disputes to arbitration. House Report at

38
3602. The due process and public policy defenses under the Convention are meant to guard against arbitral procedures that undermine the foundations of international arbitration practice and to provide a baseline of fairness and due process. Condoning gamesmanship in arbitrator selection is fundamentally unfair because the resulting arbitral panel lacks neutrality, depriving the parties of an effective substitute for
the judicial forum and discouraging the use of international arbitration to resolve commercial disputes.
C.

The Fifth Circuit Court of Appeals Erred
in Affirming the Arbitral Award Handed
Down by a Severely Lopsided Panel

The Fifth Circuit erred in finding the arbitral
panel was “fairly constituted” and in sanctioning the
parties’ unequal treatment in the arbitrator selection
process. The Fifth Circuit improperly focused on the
number of participants, wrongly assuming that unequal treatment would not directly affect the outcome:
“This case involves two sides, but, more importantly,
it features seven members; suppose Eris had tossed
the Apple of Discord into a Soaring Wind conference
room, prompting a free-for-all among the parties —
the arbiter selection process would have remained the
same.” Pet. App. 18a. Here, Respondents positioned
themselves as one claimant group at the outset. Tang
filed the arbitration demand “in its own capacity and

39
on behalf of Wind Energy LLC and its other members,
the Nolan Group, Inc., Keith P. Young, Mitchell W.
Carter, and Jan Family Interests Ltd.” ROA.29633.
In the demand, Tang prayed for relief “in its own
name and on behalf of Soaring Wind Energy, LLC and
the other similarly situated members[.]” ROA.29644.
This alliance to act as one even before arbitrator selection, formed two distinct claimant and respondent
groups. As a result, Respondents directly or indirectly
appointed a super-majority of the nine-member panel.
Respondents’ arbitrators voted as a block, as intended, capturing the proverbial Apple of Discord.
Allowing each participant in the arbitration to
appoint its own arbitrator, while facially affording the
“same” treatment to each participant, in fact denied
AVIC USA and Petitioners equal treatment in arbitrator selection, in contravention of international arbitration practice and due process. It is fundamentally unfair for one side to appoint a super-majority of
the arbitrators, as to all but guarantee a favorable
outcome. See Waincymer, supra, at 510-11; Commonwealth Coatings, 393 U.S. at 149; McMullen, 355 F.3d
at 494. It is especially unfair where the party seeking
to benefit from an egregiously imbalanced tribunal initiated and framed the dispute as consisting of only
two sides in the arbitration demand. See ROA.29633,

40
ROA.29644 (demanding arbitration on behalf of all
Respondents and appointing a single arbitrator).
Illustrative of the direct relationship between
equal treatment during the constitution of the panel
and due process and the need for independent court
review, is the unmistakable evidence here of Respondents’ intentional gaming of the appointment process
to guarantee a favorable outcome — precisely the situation that the New York Convention and the international arbitration community say must be avoided.
Counsel for Tang circulated an Agreement regarding
Division of Proceeds agreeing to pay “the legal fees for
those members of SWE who appoint an arbitrator
with Tang’s approval.” ROA.30978-80 (emphasis
added). Tang’s counsel also circulated a spreadsheet
to the Respondents assessing the likelihood of favorable rulings from potential arbitrators. ROA.29715-18
(“stupid, unpredictable, but likes me;” “Loves Texas.
Endorsed me as candidate;” “Not that bright. Likes
Carlos [Tang’s counsel’s law partner] . . . would probably go along.”).
The courts below were also incorrect that the
imbalanced panel constitution was simply the outcome of the contractual process for panel selection,
and therefore permissible. The district court and the
Fifth Circuit erred in interpreting the contract by disregarding the well-established principles of law that

41
would invalidate a decision permitting such an unfair
arbitral selection process or the resulting award. See
Waincymer, supra, at 510-11. The courts below
should have interpreted the contract to avoid a glaring
conflict with the internationally recognized norm of
equality and fairness in arbitral selection. When
viewed in that light, the skewed arbitral selection process violated the arbitration agreement and the resulting award should be set aside.
D.

This Case Is the Ideal Vehicle to Confirm
the Application of the Principle of Equality of Treatment to the Constitution of an
Arbitral Panel

Objections to the panel constitution were raised
at every stage by Petitioners and AVIC USA. The
prejudice resulting from the constitution of the lopsided panel is readily apparent: the stacked deck
panel voted in a block in asserting jurisdiction over
non-signatories and in issuing its award against both
AVIC USA and the Petitioners. This case squarely
presents this issue of fundamental importance to the
fairness of arbitral proceedings and to confidence in
and respect for the institution of arbitration.

42
III.

Review of This Case Would Complement the
Court’s Review in Henry Schein

On June 15, 2020, the Court granted a petition
for writ of certiorari in Henry Schein, Inc. v. Archer &
White Sales, Inc., as to “[w]hether a provision in an
arbitration agreement that exempts certain claims
from arbitration negates an otherwise clear and unmistakable delegation of questions of arbitrability to
an arbitrator.” 935 F.3d 274 (5th Cir. 2019), cert.
granted, No. 16-41674.
The resolution of Henry Schein will require this
Court to determine who decides arbitrability—the
court or the arbitrator—depending on the scope of the
parties’ agreement. The first question presented here
requires this Court to resolve when a court must determine arbitrability—whether independent court review of arbitral jurisdiction must come before the arbitration, before confirmation, or whether, as the
courts mistakenly held below, that issue may be deferred to enforcement. Review of the first question
presented would provide guidance that complements
the resolution in Henry Schein, and it would be ideal
for the Court to consider these closely related issues
in tandem.
The Court accordingly should grant the petition
for a writ of certiorari. Even if this Court chooses not

43
to undertake review of this important question immediately, this Court should hold this petition in abeyance to be considered in light of the outcome in Henry
Schein.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
CEDRIC C. CHAO
CHAO ADR, PC
One Market Street
Spear Tower, 36th Floor
San Francisco, CA 94105
(415) 293-8088
Cedric.Chao
@chao-adr.com

Counsel for Aviation
Industry Corporation of
China and China
Aviation Industry
General Aircraft
Company Limited
DREW W. MARROCCO
DENTONS US LLP

ILANA H. EISENSTEIN
Counsel of Record
DLA PIPER LLP (US) One
Liberty Place
1650 Market St.
Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein
@us.dlapiper.com

ISABELLE L. ORD
DLA PIPER LLP (US)

44
1900 K St., N.W.
Washington, D.C. 20006
(202) 496-7961
Drew.Marrocco@
dentons.com

555 Mission Street
Suite 2400
San Francisco, CA 94105
(415) 415 836-2500
Isabelle.Ord@
us.dlapiper.com

Counsel for Aviation
Industry Corporation of
China and China
Aviation Industry
General Aircraft
Company Limited
LEANNA ANDERSON
DENTONS US LLP
2000 McKinney Ave.
Suite 1900
Dallas, Texas 75201
(214) 259-0900
Leanna.Anderson@
dentons.com

Counsel for AVIC
International Holding
Corporation

JULY 6, 2020

GREGORY R. AVE
WALTERS. BALIDO &
CRAIN, LLP
10440 N. Central
Expressway
Suite 1500
Dallas, TX 75231
(214) 347-8310
Greg.Ave@
wbclawfirm.com

Counsel for AVIC
International Renewable
Energy Corporation

